 DEPARTMENT OF HOMELAND SECURITY
      Office of Inspector General



   Assistance to Firefighters Grant Program – 

                 Fiscal Year 2003 





OIG-08-84                        August 2008
                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                       August 7, 2008

                                           Preface

The Department of Homeland Security, Office of Inspector General, was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports
published as part of our oversight responsibilities to promote economy, effectiveness, and
efficiency within the department.

The attached report presents the results of the audit of the Assistance to Firefighters Grant
Program – Fiscal Year 2003. We contracted with the independent public accounting firm
Foxx & Company to perform the audit. The contract required that Foxx & Company
perform its audit according to generally accepted government auditing standards.
Foxx & Company issued reports to 30 separate grant recipients, 10 located in each state
of California, Illinois, and New York. This report is a summary of those 30 individual
reports, and contains 14 recommendations concerning ineligible expenditures,
unsupported costs, and improving the effectiveness of the program.

The recommendations herein have been discussed with those responsible for
implementation. It is our hope that this report will result in more effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to
the preparation of this report.




                                       Richard L. Skinner 

                                       Inspector General 

Table of Contents/Abbreviations


Executive Summary ......................................................................................................... 1 


Background ...................................................................................................................... 2 


Results of Audit ................................................................................................................ 4 


     Grant Recipients Did Not Comply With Grant Requirements, Some Resulting 

       in Ineligible Project Expenditures (Finding A) ....................................................... 4 

     Recommendations ........................................................................................................ 5 

     Management Comments and OIG Analysis ................................................................ 6 


     Grant Recipients Incurred Costs That Were Not Properly Supported (Finding B) ..... 7 

     Recommendations ........................................................................................................ 8 

     Management Comments and OIG Analysis ................................................................ 9 


Appendices

     Appendix A:           Objectives, Scope, and Methodology ............................................... 12 

     Appendix B:           Scope of Work .................................................................................. 14 

     Appendix C:           Grantee Information ........................................................................... 15 

     Appendix D:           Results of Audit – With Findings ...................................................... 21 

     Appendix E:           Results of Audit – Without Findings ................................................. 30 

     Appendix F:           Management Comments to the Draft Report ..................................... 41 

     Appendix G:           Report Distribution ............................................................................ 48 


Abbreviations

     AFGP                  Assistance to Firefighters Grant Program

     DHS                   Department of Homeland Security 

     FEMA                  Federal Emergency Management Agency 

     FY                    Fiscal Year             

     OIG                   Office of Inspector General 

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                 Foxx & Company conducted a performance audit of the Fiscal
                 Year 2003 Assistance to Firefighters Grant Program for the
                 Department of Homeland Security, Office of Inspector General.
                 The audit included approximately $7,164,087 awarded to 30 grant
                 recipients, 10 located in each state of California, Illinois, and
                 New York. At the time of the audit, conducted between February
                 2007 and October 2007, the FY 2003 Program was the most recent
                 for which grant awards were fully implemented.

                 Of the 30 grant recipients reviewed, 21 expended grant funds in
                 accordance with the grant agreement and provided appropriate
                 documentation to support the incurred costs. Of the remaining
                 nine grant recipients, four did not comply with grant requirements,
                 resulting in ineligible expenditures, three had unsupported costs,
                 and two had both ineligible expenditures and unsupported costs.

                 The recipients that did not comply with grant requirements had
                 ineligible expenditures totaling $78,930. These recipients
                 generally did not comply with document retention policies, or did
                 not follow federal procurement regulations. Recipients also
                 claimed preaward expenditures without receiving approval from
                 the Federal Emergency Management Agency, and provided
                 inaccurate Financial Status Reports.

                 The recipients with unsupported costs, totaling $15,863, had
                 accounting systems that were not in compliance with federal
                 requirements, claimed costs in excess of grant expenditures, or had
                 invoices that did not reflect the total program cost.

                 We recommend that the Federal Emergency Management Agency
                 resolve the ineligible expenditures and unsupported costs, and
                 ensure that grant recipients establish accounting systems, comply
                 with records retention policies, and follow federal regulations for
                 soliciting bids. The Federal Emergency Management Agency
                 provided a written response to the recommendations, satisfying the
                 intent of 10 of the 14 recommendations. We request additional
                 information regarding one recommendation, and ask that the
                 Federal Emergency Management Agency reconsider its position on
                 the remaining three recommendations.

               Assistance to Firefighters Grant Program - Fiscal Years 2003 


                                          Page 1 

Background
               The Assistance to Firefighters Grant Program (AFGP) awards
               1 year grants directly to fire departments or Emergency Medical
               Services organizations within the states to enhance their abilities to
               respond to fire and fire-related hazards. The Defense
               Authorization Act of Fiscal Year (FY) 2001 (P.L. 106-398, Title
               XVII, Section 1701) established the AFGP and authorized the
               Federal Emergency Management Agency (FEMA) to make grants
               directly to local fire departments. This program seeks to support
               departments that lack the tools and resources necessary to protect
               the health and safety of the public and firefighting personnel with
               respect to fire and fire-related hazards. The Grant Programs
               Directorate within FEMA administers the grants in cooperation
               with the United States Fire Administration.

               For FY 2003, an applicant could submit a grant proposal that
               addressed all of the applicant’s needs within one of four program
               areas. Grant recipients were required to provide a matching
               contribution that varied from 10% to 30%, based on the population
               protected by the recipient’s organization. The four FY 2003 AFGP
               program areas included:

               	 Fire Operations and Firefighter Safety Program. Eligible
                  activities under this function were limited to training, wellness
                  and fitness, firefighting equipment, personal protective
                  equipment, and modifications to fire stations and facilities.

               	 Fire Prevention Program. Eligible activities under this
                  function included, but were not limited to, public education and
                  awareness activities, fire codes enforcement activities, fire
                  inspector certifications, purchase and installation of smoke
                  alarms and fire suppression systems, wildland mitigation, and
                  arson prevention and detection activities.

               	 Emergency Medical Services Program. Eligible activities
                  under this function for fire-based Emergency Medical Services
                  units were limited to equipment, training, and wellness and
                  fitness initiatives. Vehicles, such as ambulances, were not
                  eligible in this programmatic area.

               	 Firefighting Vehicles Acquisition Program. Eligible
                  apparatus under this programmatic area included, but were not
                  limited to, pumpers, brush trucks, tankers, rescue, ambulances,
                  quints, aerials, foam units, and fireboats. Each applicant could
                  apply for only one vehicle.

             Assistance to Firefighters Grant Program - Fiscal Year 2003 


                                       Page 2 

  In FY 2003, Congress appropriated $750 million to the program
  (P.L. 108-7, Consolidated Appropriations Resolution, 2003,
  February 20, 2003). FY 2003 AFGP grant applications totaled
  20,063 and requested grant awards totaled $2,459,731,053. A total
  of 8,745 grants worth $705,242,829 were awarded through a
  determination of eligibility and competitive evaluation.

  Foxx & Company conducted a performance audit of the FY 2003
  Assistance to Firefighters Grant Program for the Department of
  Homeland Security (DHS) Office of Inspector General (OIG).
  This audit included 30 grant recipients, 10 located in each state of
  California, Illinois, and New York.

  The objective of this audit was to determine whether the fire
  departments properly accounted for and used the AFGP grant
  funds in compliance with federal requirements and program
  guidance. Specifically, the audit was to determine if:

     The grantee properly accounted for the awarded federal funds
      and acquired property assets, and
     The claimed program costs were eligible, reasonable, and
      adequately supported.

  See Appendix A for additional details on the objective, scope, and
  methodology of this audit.

  The audit included a review of approximately $7,164,087 awarded
  to local fire departments in FY 2003. Appendix B includes the
  date and location of audit fieldwork, and total program award for
  each grant recipient reviewed by Foxx & Company. Appendix C
  provides the total estimated program costs, federal share, grantee
  share, and performance period for all 30 grantees reviewed.

  The audit was conducted in accordance with Government Auditing
  Standards as prescribed by the Comptroller General of the United
  States. Foxx and Company was not engaged to and did not
  perform a financial statement audit, the purpose of which would be
  to render an opinion on the agency’s financial statements or the
  funds claimed in the Financial Status Reports submitted to DHS.




Assistance to Firefighters Grant Program - Fiscal Year 2003 


                          Page 3 

Results of Audit
     Grant Recipients Did Not Comply With Grant Requirements, 

     Some Resulting in Ineligible Project Expenditures (Finding A) 

                 Foxx & Company identified six recipients that did not fully
                 comply with all grant requirements due to problems with document
                 retention, bidding and procurement procedures, timely obligation
                 liquidation, and inaccurate financial reporting. A total of $78,930
                 was determined to be ineligible, detailed in Appendix D.
                 Specifically:

                 	 Merced County, California, Department of Administrative
                    Services: Did not comply with the AFGP grant’s document
                    retention requirement. Because Merced County has already
                    taken what is considered to be appropriate corrective action,
                    there is no recommendation.

                 	 Yuba City, California, Fire Department: Did not comply with
                    federal regulations to liquidate $14,924 in obligations within
                    90 days after the end of the performance period (or request an
                    extension from FEMA) and minimize the amount of time that
                    elapses between the receipt of federal funds and their
                    disbursement. In addition, the Yuba City Fire Department
                    provided inaccurate information in its Final Financial Status
                    Report, which is a prerequisite for the close-out of the grant.

                 	 Limestone Fire Protection District, Peoria, Illinois: Did not
                    follow federal procurement regulations in purchasing a
                    compressor to fill Self Containing Breathing Apparatus air
                    tanks. It solicited a quote from a single source prior to
                    applying for the AFGP grant.

                 	 Brockport, New York, Fire Department: Did not obtain formal
                    bids, which is required under the AFGP. Officials said that the
                    Fire Department began to comply with the requirement in
                    FY 2004, and no additional recommendation was made. The
                    audit also concluded that the Brockport Fire Department
                    claimed preaward expenditures of $18,169 without receiving
                    the required approval from FEMA.

                 	 North Collins, New York, Fire Company: Did not obtain
                    formal written bids or quotes as required, and did not retain
                    notes on the various oral quotes received from vendors.



               Assistance to Firefighters Grant Program - Fiscal Year 2003 


                                         Page 4 

     	 Rhinebeck, New York, Fire Department: Did not follow
        federal procurement regulations in purchasing a filling station
        for $33,968 and a thermal imaging camera for $11,869.
        Competitive bidding from more than one source was not
        pursued for the items purchased by the Rhinebeck Fire
        Department.

Recommendations
     We recommend that for the individual grantees listed below, the
     Administrator, Federal Emergency Management Agency:

     Recommendation #1: Yuba City, California, Fire Department
        a.	 Determine the final disposition of the questioned
            $14,924.41 that the Yuba City Fire Department held onto
            for an additional 19 months before it paid the contractor.
        b.	 Instruct Yuba City Fire Department to remit any interest
            earned on the retained funds (less $100 for expenses) to
            FEMA.

     Recommendation #2: Limestone, Illinois, Fire Protection District
        a.	 Require the grantee to follow federal procurement
            regulations for soliciting bids to purchase firefighting
            vehicles or other equipment with AFGP funds.

     Recommendation #3: Brockport, New York, Fire Department
        a.	 Determine the final disposition of the $18,169 ineligible
            preaward costs for the Brockport Fire Department.

     Recommendation #4: North Collins, New York, Fire Company
        a.	 Ensure that the North Collins Fire Company complies with
            federal procurement and supporting documentation
            requirements for any future awards under the AFGP.

     Recommendation #5: Rhinebeck, New York, Fire Department
        a.	 Determine the final disposition of the questioned $45,837
            for the filling station ($33,968) and thermal imaging
            camera ($11,869) purchased by Rhinebeck Fire
            Department.
        b.	 Ensure that the Rhinebeck Fire Department complies with
            federal procurement requirements for any future awards
            under the AFGP.




   Assistance to Firefighters Grant Program - Fiscal Year 2003 


                             Page 5 

Management Comments and OIG Analysis
     We received written comments on the recommendations from
     FEMA officials. See Appendix F for the full text of the response.
     All but one of the grant recipients agreed with the findings and had
     no further comments. While the Limestone Fire Protection District
     did not disagree with the results of the audit, its management
     believes that it did nothing wrong.

     Specifically, for Recommendation 1a, program officials note that
     the OIG report fails to cite that Yuba City provided significantly
     overmatched funds. The $14,924.41 in question was not federal
     funds but rather was part of the $89,410 total local share. As a
     result, the program officials state that no further action is necessary
     and no interest should be collected under Recommendation 1b.
     The actions cited by FEMA satisfy the intent of the
     recommendation, which is now resolved and closed.

     For Recommendation 2, it is the program office’s policy to require
     grantees to follow their own procurement policies, therefore,
     according to program officials, no action is necessary. The
     program office believes that because of the special circumstances
     surrounding regional franchising of self-contained breathing
     apparatuses, the grantee did everything it could to instill
     competition into its procurements under the grant.

     We agree that FEMA’s actions and the special circumstances
     regarding the purchase satisfy the intent of Recommendation 2,
     which is now resolved and closed. However, FEMA incorrectly
     applied the criteria cited in 44 CFR Part 13 Uniform Administrative
     Requirements for Grants and Cooperative Agreements to State and
     Local Governments. Specifically, section 13.36 Procurement
     states that subgrantees will use their own procurement procedures,
     provided that the procedures conform to applicable Federal law
     and the standards identified in this section. Therefore, the program
     office’s response that subgrantees conform to 44 CFR Part 13 by
     following local procurement policies, procedures, and practices is
     incorrect.

     For Recommendation 3, program officials find that the $18,169 in
     costs is “eligible.” Procedurally, the costs were not specifically
     approved and thus, should not be allowed. However, the program
     office maintains that if the grantee had requested permission to
     include these preaward costs, approval would likely have been
     given. As such, the program official’s final disposition would be
     to allow the expenses under the grant. A note reflecting that

   Assistance to Firefighters Grant Program - Fiscal Year 2003 


                             Page 6 

            disposition will be placed in the on-line file under the “Comments”
            section. The actions cited by FEMA satisfy the intent of the
            recommendation, which is now resolved and closed.

            For Recommendation 4, because the recipient has not received any
            AFGP awards since 2003, the program office will take no follow
            up action to ensure compliance with Federal procurement
            regulations. On a macro-basis, the program office wants to note
            for the record that it carries out actions to ensure that all grantees
            are aware of established policies in this area. Without a significant
            increase in staffing, it is not feasible to “ensure” that all grantees
            comply with this requirement. The actions cited by FEMA satisfy
            the intent of the recommendation, which is now resolved and
            closed.

            As for Recommendation 5a, the program office mitigates the
            potential effect of the lack of competition by limiting grant fund
            levels to prevailing current costs for many items awarded, such as
            the items specified by this recommendation. The prices that
            Rhinebeck ultimately paid for those items were within the program
            office’s allowance. The actions cited by FEMA satisfy the intent
            of the recommendation, which is now resolved and closed.

            Regarding Recommendation 5b, since Rhinebeck’s 2005 grant is
            still open, the program office will follow up on the
            recommendation and review any irregularities prior to completing
            close out actions for that award. Recommendation 5b, while
            resolved, will remain open until follow up action is taken regarding
            any irregularities identified in the recipient’s 2005 award.

            The Administrator, Federal Emergency Management Agency,
            needs to provide within 90 days the status of the corrective actions
            for the open recommendation and a timeline to implement the
            actions.


Grant Recipients Incurred Costs That Were Not Properly
Supported (Finding B)
            Foxx & Company identified five recipients with unsupported costs
            due to inconsistent reporting, lack of documentation, and actual
            costs exceeding grant amounts. The audit identified a total of
            $15,863 in unsupported costs, detailed in Appendix D.
            Specifically:



          Assistance to Firefighters Grant Program - Fiscal Year 2003 


                                    Page 7 

        Butte County, California, Fire Department: Claimed costs of
         $198 more than the actual expenditures incurred under the
         grant. Because Butte County did not return the funds to DHS,
         we question the unsupported $198 claimed under the grant.

        Imperial County, California, Fire District: Claimed costs of
         $325,965, but could provide supporting documentation only for
         costs of $325,028 associated with the AFGP grant.
         Accordingly, we question the unsupported costs of $937
         claimed by the Fire Department.

        Brockport, New York, Fire Department: The total amount
         reported as spent varied among the various closeout reports.
         The Brockport Fire Department officials could not explain the
         difference between the claimed cost of $187,133 (Final
         Financial Status Report and Final Performance Report) and the
         $186,245 (cancelled checks).

        Buskirk, New York, Volunteer Fire Department: Did not
         maintain an official grant file containing copies of all actions
         taken on the grant for a period of 3 years after the official
         closeout date. Instead, all income and expenditures were
         tracked using a single bank account. The Buskirk Volunteer
         Fire Department did not provide copies of all invoices and
         cancelled checks supporting the exact cost of the fire truck, and
         the additional equipment added to the fire truck. However,
         using documentation and a reconciliation provided by the
         Buskirk Volunteer Fire Department Treasurer, we were able to
         calculate that the total cost of the truck and equipment was
         $277,149.

        Rhinebeck, New York, Fire Department: Did not provide
         adequate invoices for purchased equipment. The $14,728
         difference between the cost claimed ($125,027) and the
         amounts actually paid ($110,299) is considered an unsupported
         cost.

Recommendations
     We recommend that for the individual grantees listed below, the
     Administrator, Federal Emergency Management Agency:

     Recommendation #6: Butte County, California, Fire Department
        a.	 Determine the final disposition of the federal share of the
            unsupported claim of $198.


   Assistance to Firefighters Grant Program - Fiscal Year 2003 


                             Page 8 

     Recommendation #7: Imperial County, California, Fire Department
        a.	 Determine the final disposition of the federal share of the
            unsupported $937.
        b.	 If federal grants are awarded to the county in the future,
            require the County to establish separate accounts within its
            accounting system to track the receipt and expenditure of
            the federal grants.

     Recommendation #8: Brockport, New York, Fire Department
        a.	 Ensure that the Brockport Fire Department complies with
            federal requirements for closeout reporting for any future
            awards under the AFGP.

    Recommendation #9: Buskirk, New York, Volunteer Fire
       Department
       a.	 Require the department to comply with federal accounting
           and records keeping requirements, including the retention
           of an official grant file for at least 3 years after the official
           close-out date.

     Recommendation #10: Rhinebeck, New York, Fire Department
        a.	 Determine the final disposition of the $14,728 in
            unsupported costs.
        b.	 Ensure that the Rhinebeck Fire Department complies with
            federal documentation requirements for any future AFGP
            awards.

Management Comments and OIG Analysis
     We received written comments on the recommendations from
     FEMA officials. See Appendix F for the full text of the response.
     All but one of the grant recipients agreed with the findings and had
     no further comments. The Butte County Fire Department did not
     dispute the results of the audit, but was unable to recall the grant
     details because the period of performance was more than 3 years
     ago.

     Specifically, for Recommendation 6, program officials concurred
     and agreed to collect the federal portion of the unsupported
     amounts. The actions cited by FEMA satisfy the intent of the
     recommendation, which is now resolved and closed.

     For Recommendation 7a, program officials concurred and agreed
     to collect the federal portion of the unsupported amounts.
     Regarding Recommendation 7b, the Program Office will require
     the recipient to establish separate accounts within its accounting

   Assistance to Firefighters Grant Program - Fiscal Year 2003 


                             Page 9 

  system, should future grants be awarded. The actions cited by
  FEMA satisfy the intent of the recommendations, which are now
  resolved and closed.

  For Recommendation 8, FEMA program officials will take no
  further action because Brockport was able to account for all federal
  and matching funds. We request that FEMA reconsider its
  position that no further action is warranted. We contend that even
  though the recipient was able to account for its federal share of the
  funds, the recipient’s closeout reporting was not accurate. For
  future grants, the recipient may not be able to account for all
  federal funds. Therefore, we request that FEMA reconsider its
  position to ensure that closeout for future grants, if any are
  awarded, comply with reporting requirements. This
  recommendation remains open and unresolved.

  For Recommendation 9, grantee compliance with federal
  accounting and records keeping is clearly defined in the program
  guidance; therefore program officials will not take any further
  action. We request that FEMA reconsider its position that no
  further action is warranted, since records keeping requirements are
  already a condition of grant award. We request that FEMA
  enforce this requirement and direct the grant recipient to retain all
  records for at least 3 years after grant close-out, as required. This
  recommendation remains open and unresolved.

  For Recommendation 10a, upon resubmittal of the closeout report,
  the program office will initiate a collection action for $13,254 (the
  difference between the $112,524 in federal funds drawn and the
  $99,270 Federal-share allowable). Because of the potential that
  fraud may have been committed, the program office would like to
  know if the OIG pursued this issue any further while on site or if
  they have referred this to its Office of Investigations for follow-up.
  We will forward this information to the appropriate OIG office.
  The actions cited by FEMA satisfy the intent of the
  recommendation, which is now resolved and closed.

  For Recommendation 10b, the program office believes that
  Rhinebeck FD has complied with documentation requirements
  since it had documents for the OIG to review. Program officials
  further stated that it is unclear whether the lack of sufficient
  documentation to reconcile the costs claimed is a documentation
  issue or fraud. The documentation requirements are detailed in the
  program guidance and there is a helpdesk available for recipients,
  as well as a Grants Management Tutorial, to provide further



Assistance to Firefighters Grant Program - Fiscal Year 2003 


                          Page 10 

  guidance to the grantee. The program office does not know what
  more could be done in this respect.

  We request that FEMA reconsider its position on Recommendation
  10b that no further action is warranted, since compliance with
  federal documentation requirements is already a condition of grant
  award. We are asking FEMA to enforce the documentation
  requirements, not just ensure that they are part of the grant award.
  FEMA could consider placing a note in the official file for any
  future awards to ensure compliance with this requirement. This
  recommendation remains open and unresolved.

  The Administrator, Federal Emergency Management Agency,
  needs to provide within 90 days the status of reconsideration of
  position on the three open recommendations, a corrective action
  plan for addressing them, and a timeline for implementing each
  action.




Assistance to Firefighters Grant Program - Fiscal Year 2003 


                          Page 11 

Appendix A
Objectives, Scope, and Methodology


                    The objective of the Assistance to Firefighters Grant Program audits
                    was to determine whether the grant recipients properly accounted
                    for and used the Assistance to Firefighters Grant Program grant
                    funds in compliance with federal requirements and program
                    guidance. Specifically, the audit was to determine if (1) the grantee
                    properly accounted for the awarded federal funds and acquired
                    property assets, and (2) the claimed program costs were eligible,
                    reasonable, and adequately supported. At the time of the audit,
                    conducted between February 2007 and October 2007, the FY 2003
                    Program was the most recent for which grant awards were fully
                    implemented.

                    Appendix B includes the date and location of audit fieldwork, and
                    total program award for each grant recipient reviewed by Foxx &
                    Company. Individual grant recipients were selected by the
                    contractor, based on criteria provided by the Office of Inspector
                    General. The Office of Inspector General directed that the
                    selections include rural, suburban, and urban locations, in
                    proportion to the grant recipients in each state. The Office of
                    Inspector General also requested that the contractor focus on two of
                    the four programmatic categories of assistance permitted within the
                    AFGP:

                        •    The Firefighting Vehicles Acquisition Program and
                        •    The Fire Operations and Firefighter Safety Program.

                    In addition to the geographic and programmatic considerations, the
                    contractor also based its selection on high-dollar grant awards.

                    Appendix C provides the total estimated program costs, federal
                    share, grantee share, and performance period for all 30 grantees
                    reviewed. Foxx & Company reviewed documentation received
                    from DHS and the grantee. They made appropriate inquiries and
                    tested selected transactions to the extent and degree deemed
                    necessary to satisfy the audit objectives and to help ensure that the
                    AFGP grant had been managed in compliance with applicable
                    regulations. In addition, they reviewed the grantee’s procurement
                    and property management procedures for compliance with federal
                    regulations.

                    The results of the individual audits of grant recipients that identified
                    either noncompliance with grant requirements (and ineligible
                    project expenditures) or unsupported costs are summarized in
                    Appendix D. Results of individual audits for the remaining grant


                  Assistance to Firefighters Grant Program - Fiscal Year 2003 


                                            Page 12 

Appendix A
Objectives, Scope, and Methodology

                    recipients, who were in compliance with grant requirements, are
                    presented in Appendix E.

                    The audit was conducted in accordance with Government Auditing
                    Standards as prescribed by the Comptroller General of the United
                    States (Yellow Book – June 2003 Revision). Foxx & Company was
                    not engaged to, and did not, perform a financial statement audit, the
                    objective of which would be to express an opinion on specified
                    elements, accounts, or items. If they had performed additional
                    procedures or conducted an audit of the financial statements in
                    accordance with generally accepted auditing standards, other
                    matters might have come to their attention that would have been
                    reported. This report relates only to the accounts and items
                    specified. The report does not extend to any financial statements of
                    the grantee and should not be used for that purpose.




                  Assistance to Firefighters Grant Program - Fiscal Year 2003 


                                            Page 13 

Appendix B
Scope of Work

                GRANTEE                           LOCATION                        AUDIT         TOTAL
                                                                                  FIELD       PROGRAM
                                                                                  WORK         AWARD
       Butte County FD                   Oroville, California                      04/07        $425,425
       Daly City FD                      Daly City, California                     04/07       $573,992
       Deer Springs FPD                  Escondido, California                     04/07        $234,000
       Hemet FD                          Hemet, California                         04/07       $227,688
       Imperial County FD                Heber, California                         04/07       $325,965
       Merced FD                         Merced, California                     04/07-06/07    $171,000
       Ontario FD                        Ontario, California                       04/07       $331,958
       Sacramento River FPD              Colusa, California                        03/07        $235,522
       South Monterey County FPD         King City, California                     04/07       $252,500
       Yuba City FD                      Yuba City, California                  03/07-06/07     $188,450
       Total California                                                                       $2,966,500
       Belleville, FD                    Belleville, Illinois                     04/07        $221,948
       Carbondale FD                     Carbondale, Illinois                     04/07        $145,000
       Carlinville FD                    Carlinville, Illinois                    05/07         $123,814
       Decatur FD                        Decatur, Illinois                        05/07         $234,600
       Limestone FPD                     Peoria, Illinois                         04/07         $197,367
       McHenry FPD                       McHenry, Illinois                        06/07         $257,550
       Neoga FPD                         Neoga, Illinois                          04/07         $249,500
       Rockland FPD                      Lake Bluff, Illinois                     06/07         $396,000
       Serena Community FPD              Serena, Illinois                         06/07         $112,256
       Wilmington FPD                    Wilmington, Illinois                     06/07         $109,660
       Total Illinois                                                                         $2,047,695
       Brockport FD                      Brockport, New York                      06/07         $184,853
       Buskirk VFD                       Buskirk, New York                        04/07         $250,000
       Dansville FD                      Dansville, New York                      06/07         $260,165
       Fort Plain VFD                    Fort Plain, New York                     04/07         $250,000
       Frankfort VFD                     Frankfort, New York                      04/07         $380,000
       Lockport FD                       Lockport, New York                       06/07         $250,000
       North Collins FC                  North Collins, New York                  06/07         $138,200
       Rhinebeck FD                      Rhinebeck, New York                      05/07         $125,027
       Roosevelt Fire District           Poughkeepsie, New York                   05/07         $186,780
       Saratoga Springs FD               Saratoga Springs, New York               04/07        $124,867
       Total New York                                                                         $2,149,892
       Total All States                                                                       $7,164,087



                                                                           FC =Fire Company
                                                                        FD = Fire Department
                                                                  FPD =Fire Protection District
                                                                VFD=Volunteer Fire Department

                  Assistance to Firefighters Grant Program - Fiscal Year 2003

                                           Page 14
Appendix C
Grantee Information

    GRANTEE            GRANT          GRANT        FEDERAL          GRANTEE’S          PERFORMANCE                    AREA COVERAGE,
                      PURPOSE         AWARD         SHARE             SHARE               PERIOD                   POPULATION, AND STAFF

    California
    Butte County    Personal           $425,425       $297,798            $127,627           9/01/03 to     Butte County FD is a volunteer fire
    FD              protective                           (70%)               (30%)            8/31/04       department with 30 fire stations serving about
                    equipment                                                                               100,000 people in a mostly rural, 1,639 square
                                                                                                            mile area. The California Department of
                                                                                                            Forestry (Cal Fire) provides management and
                                                                                                            administrative support.
    Daly City FD    Fire               $573,992       $401,794            $172,198          12/15/03 to     Daly City FD had 80 full-time firefighters.
                    operations,                          (70%)               (30%)           12/14/04       The Daly City FD served a population of
                    equipment,                                                                              about 107,000 in urban area of about 8 square
                    and training                                                                            miles.
    Deer Springs    Firefighting       $234,000       $210,600             $23,400          01/01/04 to     Deer Springs FPD served about 45 square
    FPD             vehicle                              (90%)               (10%)           12/31/04       miles with a population base of 12,000. The
                                                                                                            department consists of 3 fire stations with 17
                                                                                                            full time fire fighters and is administered by
                                                                                                            the California Department of Forestry (Cal
                                                                                                            Fire) via a cost-sharing agreement with San
                                                                                                            Diego County.
    Hemet FD        Public safety      $227,688       $159,382             $68,306          12/01/04 to     Hemet FD had four fire stations with about 50
                    radio system                         (70%)               (30%)           3/31/05∗       full time firefighters and served a 26 square
                    equipment                                                                               mile area with a population of 62,760.
    Imperial        Firefighting       $325,965       $293,368             $32,597          12/15/03 to     Imperial County FD served a rural area of
    County FD       equipment                           (90%)                (10%)           12/14/04       about 4,597 square miles with a population
                                                                                                            base of about 48,000 citizens. The
                                                                                                            department was staffed with 57 firefighters, of
                                                                                                            which 30 were volunteer firefighters.



∗
    Extended 90 days from original performance period (December 1, 2004 – December 31, 2005)
                                                                                                                        FC =Fire Company
                                                                                                                     FD = Fire Department
                                                                                                               FPD =Fire Protection District
                                                                                                             VFD=Volunteer Fire Department
                                              Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                       Page 15
Appendix C
Grantee Information

 GRANTEE       GRANT        GRANT      FEDERAL          GRANTEE’S          PERFORMANCE                     AREA COVERAGE,
              PURPOSE       AWARD       SHARE             SHARE               PERIOD                    POPULATION, AND STAFF
Merced       Firefighting   $171,000      $119,700             $51,300           8/15/03 to      Merced County FD served a rural area of
County FD    and personal                   (70%)                (30%)            8/14/04        about 2,000 square miles with a population
             protective                                                                          base of about 128,000 citizens. The FD was
             equipment                                                                           staffed with 291 firefighters, about 25% of
                                                                                                 which were career firefighters. The Merced
                                                                                                 County FD had 20 fire stations.
Ontario FD   Vehicle        $331,958      $232,371             $99,587      2/01/04 to 1/31/05   Ontario FD served a suburban area of about
             exhaust                        (70%)                (30%)                           50 square miles with a population base of
             extraction                                                                          about 162,000 citizens. The department was
             systems                                                                             staffed with 135 full-time firefighters.
Sacramento   Firefighting   $235,522      $211,970             $23,552          10/15/03 to      The Sacramento River FPD served a rural
River FPD    vehicle                        (90%)                (10%)           10/14/04        area (about 207 square miles) with a
                                                                                                 population base of about 2,700 citizens. The
                                                                                                 department was staffed with 45 volunteer
                                                                                                 firefighters.
South        Firefighting   $252,500      $227,250             $25,250          01/01/04 to      The South Monterey County FPD served a
Monterey     vehicle                        (90%)                (10%)           12/31/04        rural area of about 516 square miles with a
County FPD                                                                                       population base of about 9,000 citizens. The
                                                                                                 department was staffed with 50 firefighters, of
                                                                                                 which 45 were volunteer firefighters.
Yuba City    Firefighting   $188,450      $131,915             $56,535          12/15/03 to      Yuba City FD served a rural area of 30 square
FD           and personal                   (70%)                (30%)           12/14/04        miles with a population base of 60,000
             protective                                                                          citizens. When the grant application was
             equipment                                                                           submitted, the fire department was staffed
                                                                                                 with 43 firefighters, about 25% of which were
                                                                                                 on-call volunteers. The department had five
                                                                                                 fire stations.




                                                                                                             FC =Fire Company
                                                                                                          FD = Fire Department
                                                                                                    FPD =Fire Protection District
                                                                                                  VFD=Volunteer Fire Department
                                  Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                           Page 16
Appendix C
Grantee Information

    GRANTEE            GRANT            GRANT        FEDERAL          GRANTEE’S          PERFORMANCE                    AREA COVERAGE,
                      PURPOSE           AWARD         SHARE             SHARE               PERIOD                   POPULATION, AND STAFF

    Illinois
    Belleville FD    Firefighting        $221,948       $199,754             $22,194          11/15/03 to     The Belleville FD served a suburban area of
                     vehicle                              (90%)                (10%)           11/14/04       25 square miles with a population base
                                                                                                              42,000. It was staffed with 55 full time
                                                                                                              firefighters and had 3 fire stations.
    Carbondale       Firefighting        $145,000       $130,500             $14,500          02/01/04 to     The Carbondale FD served a rural area of 23
    FD               vehicle                              (90%)                (10%)           01/31/05       square miles with a population base of 6,000
                                                                                                              citizens. The department was staffed with 4
                                                                                                              fulltime and 12 volunteer firefighters.
                                                                                                              Carbondale FD has only one fire station.
    Carlinville      Firefighting        $123,814       $111,432             $12,382          12/15/03 to     Carlinville FD served a rural area of about
    FD               equipment                            (90%)                (10%)           12/14/04∗      187 square miles consisting of farmland, a
                     and facility                                                                             coalmine, and the City of Carlinville with
                     modifications                                                                            5,700 residents. Staffed with 26 volunteer
                                                                                                              firefighters, it had only one fire station.
    Decatur FD       Personal            $234,600       $164,220             $70,380           1/1/04 to      Decatur FD served a suburban area of 46-50
                     protective                            (70%)               (30%)           12/31/04       square miles with the main coverage area
                     equipment                                                                                being the City of Decatur, which had about
                                                                                                              80,000 residents. The Decatur FD had
                                                                                                              108 fulltime union firefighters, 8 staff
                                                                                                              positions, and seven fire stations.
    Limestone        Firefighting        $197,367       $177,631             $19,736           9/01/03 to     The Limestone FPD served a rural area of
    FPD              equipment                             (90%)               (10%)            8/31/04       about 38 square miles with a population base
                                                                                                              of about 10,000 citizens. The department was
                                                                                                              staffed with 41 volunteer firefighters.
                                                                                                              Limestone FPD had five fire stations.



∗
    This was later amended to April 15, 2005.
                                                                                                                          FC =Fire Company
                                                                                                                       FD = Fire Department
                                                                                                                 FPD =Fire Protection District
                                                                                                               VFD=Volunteer Fire Department
                                                Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                         Page 17
Appendix C
Grantee Information

 GRANTEE       GRANT        GRANT      FEDERAL          GRANTEE’S          PERFORMANCE                    AREA COVERAGE,
              PURPOSE       AWARD       SHARE             SHARE               PERIOD                   POPULATION, AND STAFF
McHenry      Personal       $257,550      $231,795             $25,755           9/15/03 to     McHenry FPD served a rural area of 50-60
FPD          protective                      (90%)               (10%)            9/14/04       square miles with about 50,000 residents. The
             equipment                                                                          department was staffed with roughly 160
                                                                                                combination full-time and part-time on-call
                                                                                                volunteer firefighters. The McHenry FPD had
                                                                                                3 fire stations.
Neoga FPD    Firefighting   $249,500      $224,550             $24,950          10/01/03 to     The Neoga FPD served a suburban area of
             vehicle                         (90%)               (10%)            9/30/04       about 100 square miles with a population base
                                                                                                of 3,700 citizens. The department was staffed
                                                                                                with 20 volunteer firefighters and had 1 fire
                                                                                                station.
Rockland     Firefighting   $396,000      $356,400             $39,600          12/15/03 to     Rockland FPD served an urban area of about
FPD          vehicle                        (90%)                (10%)           12/14/04       4 square miles with a population base of about
                                                                                                20,000 residents. The department had one fire
                                                                                                station and was staffed with 40 volunteer
                                                                                                firefighters.
Serena       Personal       $112,256      $101,031             $11,225          08/15/03 to     Serena Community FPD served a rural area of
Community    protective                      (90%)               (10%)           08/14/04       about 130 square miles with four towns, a
FPD          equipment                                                                          large resort with over 20 multistory buildings,
                                                                                                and farmland for approximately 3,500
                                                                                                residents. Staffed with 42 volunteer
                                                                                                firefighters, it had 4 fire stations.
Wilmington   Personal       $109,660        $98,694            $10,966           9/15/03 to     Wilmington FPD served a rural area of about
FPD          protective                      (90 %)              (10%)            9/14/04       104 square miles with a population of 15,000-
             equipment                                                                          20,000 residents. The FPD was staffed with
                                                                                                50 firefighters, one of which was a fulltime
                                                                                                position and the rest were part-time. The FPD
                                                                                                had 1 fire station.



                                                                                                            FC =Fire Company
                                                                                                         FD = Fire Department
                                                                                                   FPD =Fire Protection District
                                                                                                 VFD=Volunteer Fire Department
                                  Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                           Page 18
Appendix C
Grantee Information

     GRANTEE          GRANT           GRANT         FEDERAL         GRANTEE’S          PERFORMANCE                    AREA COVERAGE,
                     PURPOSE          AWARD          SHARE            SHARE               PERIOD                   POPULATION, AND STAFF

    New York
    Brockport FD    Firefighting       $184,853        $166,368            $18,485          12/15/03 to     Brockport FD served the town of Sweden, the
                    and personal                          (90%)              (10%)           12/14/04       Village of Brockport, and the majority of the
                    protective                                                                              Town of Clarkson. The 70 square mile
                    equipment                                                                               district is a mix of urban, suburban, and rural
                                                                                                            areas. Population was about 20,000. The FD
                                                                                                            was staffed with 152 volunteer firefighters.
    Buskirk VFD     Firefighting       $250,000        $225,000            $25,000          01/01/04 to     The Buskirk VFD served a rural area of about
                    vehicle                               (90%)              (10%)           12/31/04       10 square miles with a population base of
                                                                                                            about 2,500 citizens. The department was
                                                                                                            staffed with 15 active volunteer firefighters
                                                                                                            and 10 reserve firefighters.
    Dansville FD    Personal           $260,165        $234,148            $26,017          11/15/03 to     Dansville FD served an area of about 125
                                                                                                     *
                    protective                            (90%)              (10%)           3/31/05        square miles with a population base of about
                    equipment                                                                               12,800 citizens. The department was staffed
                                                                                                            with 130 volunteer firefighters.
    Fort Plain      Firefighting       $250,000        $225,000            $25,000           7/15/03 to     Fort Plain VFD served a rural area of about 36
    VFD             vehicle                               (90%)              (10%)            9/14/04       square miles with a population base of about
                                                                                                            6,566 citizens. The department was staffed
                                                                                                            with 43 volunteer firefighters.
    Frankfort       Mobile live        $380,000        $342,000            $38,000          10/01/03 to     The Frankfort VFD served an area of 28.5
                                                                                                     **
    VFD             fire training                         (90%)              (10%)          11/30/04        square miles in central New York State with a
                    facility                                                                                population base of about 7,500 citizens. The
                                                                                                            department was staffed with 46 active
                                                                                                            volunteer firefighters.


*
     Extended from original performance period (November 15, 2003 – November 14, 2004)
**
     Extended 60 days from original performance period (October 1, 2003 – September 30, 2004)
                                                                                                                        FC =Fire Company
                                                                                                                     FD = Fire Department
                                                                                                               FPD =Fire Protection District
                                                                                                             VFD=Volunteer Fire Department
                                              Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                       Page 19
Appendix C
Grantee Information

    GRANTEE            GRANT           GRANT         FEDERAL          GRANTEE’S          PERFORMANCE                    AREA COVERAGE,
                      PURPOSE          AWARD          SHARE             SHARE               PERIOD                   POPULATION, AND STAFF
    Lockport FD      Firefighting       $250,000        $225,000             $25,000           2/1/04 to      Lockport FD served an urban area of 8.2
                     vehicle                               (90%)               (10%)            1/31/05       square miles with a base of about 23,000
                                                                                                              citizens. The department was staffed with 50
                                                                                                              career firefighters.
    North Collins    Personal           $138,200        $124,380             $13,820          10/15/03 to     North Collins FC served the Village of North
    FC               protective                            (90%)               (10%)           10/14/04       Collins, and has mutual aide agreements with
                     equipment                                                                                four other nearby towns and communities.
                                                                                                              The Village of North Collins consists of a 10
                                                                                                              square mile district. The resident population
                                                                                                              was about 1,850 and the FC was staffed with
                                                                                                              35 active volunteer firefighters.
    Rhinebeck        Personal           $125,027        $112,524             $12,503           2/1/04 to      Rhinebeck FD served a rural area of about 40
    FD               protective                            (90%)               (10%)            1/31/05       square miles with a population base of about
                     equipment                                                                                22,000 citizens. The department was staffed
                                                                                                              with 52 active firefighters.
    Roosevelt        Firefighting       $186,780        $168,102             $18,678           2/15/04 to     Roosevelt FD served a 27 square mile
    Fire District    and personal                          (90%)               (10%)            2/14/05       predominately rural area with a population
                     protective                                                                               base of about 10,000 citizens. The Fire
                     equipment                                                                                District was staffed with 113 volunteer
                                                                                                              firefighters.
    Saratoga         Firefighting       $124,867        $112,381             $12,486           2/06/04 to     The Saratoga Springs FD served a rural area
    Springs FD       equipment                             (90%)               (10%)            3/05/05†      of about 21.9 square miles with a population
                                                                                                              base of about 26,000 citizens. The
                                                                                                              department was staffed with 52 career
                                                                                                              firefighters.




†   Extended 30 days from original performance period (February 6, 2004 – February 5, 2005)
                                                                                                                          FC =Fire Company
                                                                                                                       FD = Fire Department
                                                                                                                 FPD =Fire Protection District
                                                                                                               VFD=Volunteer Fire Department
                                                Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                         Page 20
Appendix D
Results of Audits – With Findings

 GRANTEE          BRIEF DESCRIPTION                       FINDING A                          FINDING B                RECOMMENDATIONS
                     OF RESULTS
 Butte County   The Butte County FD acquired      No ineligible expenditures         The Butte County FD            We recommend that the Grant
 FD             the Personal Protective           were noted. The Butte              claimed costs of $198 more     Programs Directorate determine
 Oroville,      Equipment proposed in the         County FD expended the             than the actual expenditures   the final disposition of the federal
 California     AFGP application. The final       funds awarded under the            incurred under the grant.      share of the unsupported claim of
                cost of the equipment             AFGP in accordance with            Because Butte County did       $198.
                purchased ($425,227) was          the grant agreement.               not return the funds to DHS,
                slightly less ($198) than the                                        we question the unsupported    A telephone exit conference was
                grant award ($425,425) because                                       $198 claimed under the         held with the grantee on June 15,
                the vendor provided fewer                                            grant.                         2007. The grantee did not
                items than was ordered. The                                                                         dispute the finding, but could not
                Butte County FD identified the                                                                      recall the grant details because
                discrepancy after the grant                                                                         the performance period was more
                closed and did not report it.                                                                       than 3 years ago. The grantee
                                                                                                                    said the Butte County would
                                                                                                                    certainly have asked the vendor
                                                                                                                    to supply the final item, avoiding
                                                                                                                    the $198 discrepancy, had they
                                                                                                                    caught the error sooner.




                                                                                                                   FC =Fire Company
                                                                                                                FD = Fire Department
                                                                                                          FPD =Fire Protection District
                                                                                                        VFD=Volunteer Fire Department
                                       Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                Page 21
Appendix D
Results of Audits – With Findings

 GRANTEE         BRIEF DESCRIPTION                        FINDING A                          FINDING B                   RECOMMENDATIONS
                    OF RESULTS
 Imperial      The Imperial County FD             No ineligible expenditures         The Department claimed            We recommend that the Grant
 County FD     acquired the majority of the       were noted. The Imperial           costs of $325,965; however,       Programs Directorate:
 Heber,        firefighting equipment             County FD expended the             they could provide                (1) Determine the final
 California    proposed in the AFGP               funds awarded under the            supporting documentation          disposition of the federal share of
               application.                       AFGP for the types of items        for costs of only $325,028        the questioned $937; and,
                                                  identified in the grant            associated with the AFGP          (2) If federal grants are awarded
                                                  agreement.                         grant. Accordingly, we            to the County in the future,
                                                                                     question the unsupported          require the County to establish
                                                                                     costs of $937 claimed by the      separate accounts within its
                                                                                     Fire Department.                  accounting system to track the
                                                                                                                       receipt and expenditure of the
                                                                                     Imperial County FD did not        federal grants.
                                                                                     have a special account set
                                                                                     up within the County’s            A telephone exit conference was
                                                                                     accounting system, which is       held with the grantee on June 13,
                                                                                     why the County could not          2007. The finding and
                                                                                     track all expenditures            recommendations were discussed
                                                                                     related the installation of the   with the grantee. The grantee
                                                                                     radios.                           agreed with the findings and had
                                                                                                                       no further comments.




                                                                                                                     FC =Fire Company
                                                                                                                  FD = Fire Department
                                                                                                            FPD =Fire Protection District
                                                                                                          VFD=Volunteer Fire Department
                                       Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                Page 22
Appendix D
Results of Audits – With Findings

 GRANTEE         BRIEF DESCRIPTION                        FINDING A                          FINDING B              RECOMMENDATIONS
                    OF RESULTS
 Merced        Merced County FD acquired          The Merced County                  No unsupported costs were    Because Merced County has
 County FD     the firefighting and personal      Department of                      noted and the costs were     already taken what is considered
 Merced,       protective equipment proposed      Administrative Services did        appropriately recorded in    to be appropriate corrective
 California    in the AFGP application. The       not comply with the AFGP           Merced County’s              action on its document retention
               actual total cost of this          grant’s document retention         accounting system. The       problem, there are no
               equipment was less than the        requirement. As a result,          Merced County FD             recommendations.
               amount originally estimated.       grant-related procurement          provided appropriate
               As a result, $10,855 of the        documents were not                 documentation to support     A telephone exit conference was
               Federal Government’s portion       available at the time of the       the costs incurred in        held with the grantee on
               of the grant was deobligated,      audit.                             procuring the firefighting   September 19, 2007. The finding
               and the final costs were                                              and personal protective      and recommendations were
               $108,845 for the Federal                                              equipment.                   discussed with the grantee. The
               Government (70 %) and                                                                              grantee agreed with the finding
               $46,647 for the fire department                                                                    and had no comments.
               (30 %).




                                                                                                                   FC =Fire Company
                                                                                                                FD = Fire Department
                                                                                                          FPD =Fire Protection District
                                                                                                        VFD=Volunteer Fire Department
                                       Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                Page 23
Appendix D
Results of Audits – With Findings

 GRANTEE          BRIEF DESCRIPTION                        FINDING A                          FINDING B               RECOMMENDATIONS
                     OF RESULTS
 Yuba City FD   The total cost of the acquired     The Yuba City FD did not           No unsupported costs were     We recommend that the Grant
 Yuba City,     equipment increased from the       comply with federal                noted because of subsequent   Programs Directorate:
 California     grant application estimate of      regulations that require           research into a perceived     (1) Determine the final
                $188,450 to an actual cost of      grantees to:                       difference into the total     disposition of the questioned
                $221,325. The federal              (1) Liquidate $14,924 in           amount of costs claimed.      $14,924, and
                contribution remained $131,915     obligations not later than 90                                    (2) Instruct Yuba City to
                and the FD contribution,           days after the end of the                                        immediately remit any interest
                therefore, increased to $89,410.   performance period (or                                           earned on the excess FEMA
                                                   request an extension from                                        funds (less $100 for expenses) to
                                                   FEMA) and,                                                       FEMA.
                                                   (2) Minimize the amount of
                                                   time that elapses between                                        A telephone exit conference was
                                                   the transfer of federal funds                                    held with the grantee on
                                                   to them and their                                                September 17, 2007. The finding
                                                   disbursement of the funds.                                       and recommendations were
                                                                                                                    discussed with the grantee. The
                                                   In addition, the fire                                            grantee agreed with the findings.
                                                   department provided
                                                   inaccurate information in its
                                                   Final Financial Status
                                                   Report (which is a
                                                   prerequisite for the close out
                                                   of the grant).




                                                                                                                    FC =Fire Company
                                                                                                                 FD = Fire Department
                                                                                                           FPD =Fire Protection District
                                                                                                         VFD=Volunteer Fire Department
                                        Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                 Page 24
Appendix D
Results of Audits – With Findings

 GRANTEE         BRIEF DESCRIPTION                       FINDING A                          FINDING B                 RECOMMENDATIONS
                    OF RESULTS
 Limestone     The Limestone FPD acquired        The Limestone FPD did not          No unsupported costs were       We recommend that, in the
 FPD           the firefighting equipment        follow federal procurement         noted and the costs were        future, the Grant Programs
 Peoria,       proposed in the AFGP              regulations in purchasing a        appropriately recorded in       Directorate require the grantee to
 Illinois      application. While the cost of    compressor to fill Self-           the Limestone FPD’s             follow federal procurement
               the equipment exceeded the        Containing Breathing               accounting system. The          regulations for soliciting bids to
               amount originally estimated by    Apparatus air tanks. The           Limestone FPD provided          purchase firefighting vehicles or
               about $161, the federal share     Limestone FPD solicited a          appropriate documentation       other equipment with AFGP
               remained the same at $177,631.    quote from a single source         to support the costs incurred   grant funds.
                                                 prior to applying for the          in procuring the firefighting
                                                 AFGP grant. Had the                equipment.                      A telephone exit conference was
                                                 Limestone FPD advertised                                           held with the grantee on June 9,
                                                 for bids, potentially the                                          2007, to provide them with the
                                                 equipment items could have                                         results of the audit. While the
                                                 been purchased for a lower                                         grantee did not disagree with the
                                                 price.                                                             results of the audit, they
                                                                                                                    continued to believe that they did
                                                                                                                    nothing wrong. Although the
                                                                                                                    grantee claimed that the state
                                                                                                                    allowed them to use past
                                                                                                                    providers in good standing,
                                                                                                                    documentation was not provided
                                                                                                                    to support this position.




                                                                                                                   FC =Fire Company
                                                                                                                FD = Fire Department
                                                                                                          FPD =Fire Protection District
                                                                                                        VFD=Volunteer Fire Department
                                      Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                               Page 25
Appendix D
Results of Audits – With Findings

 GRANTEE          BRIEF DESCRIPTION                       FINDING A                          FINDING B                RECOMMENDATIONS
                     OF RESULTS
 Brockport FD   Brockport acquired firefighting   Brockport FD did not               The total amount reported as   We recommend that the Grant
 Brockport,     equipment included in the grant   procure equipment in               spent varied among the         Programs Directorate:
 New York       application. The FD claimed       accordance with the Village        various closeout reports.      (1) Determine the final
                costs in excess of the original   of Brockport Procurement           The Brockport FD officials     disposition of the $18,169
                award of $184,853. The federal    Policy. Fire Department            could not explain the          ineligible preaward costs, and,
                share remained as approved at     officials acknowledged that        difference between the         (2) Ensure that the Brockport FD
                $166,368. The grantee             they did not obtain formal         claimed cost of $187,133       complies with federal
                provided a total of $19,877       bids as required for the           (Final Financial Status        requirements for closeout
                from the Brockport FD and the     procurements under the FY          Report and Final               reporting for any future awards
                Village of Brockport funds,       2003 AFGP grant.                   Performance Report) and        under the Assistance to
                even though this amount                                              the $186,245 (cancelled        Firefighters Grant Program.
                exceeded the required 10%         The audit also concluded           checks).
                local share ($18,485).            that the Department claimed                                       A telephone exit conference was
                                                  preaward expenditures of                                          held with the grantee on
                                                  $18,169 without receiving                                         September 14, 2007. The finding
                                                  the required approval from                                        and recommendations were
                                                  FEMA. The costs were                                              discussed with the grantee.
                                                  $2,851 for electrical
                                                  services and $15,318 for
                                                  communications equipment.




                                                                                                                   FC =Fire Company
                                                                                                                FD = Fire Department
                                                                                                          FPD =Fire Protection District
                                                                                                        VFD=Volunteer Fire Department
                                       Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                Page 26
Appendix D
Results of Audits – With Findings

 GRANTEE         BRIEF DESCRIPTION                        FINDING A                          FINDING B                  RECOMMENDATIONS
                    OF RESULTS
 Buskirk VFD   The Buskirk VFD acquired the       No ineligible expenditures         The Buskirk VFD record-          We recommend that if future
 Buskirk,      firefighting vehicle proposed;     were noted. The Buskirk            keeping and accounting           awards are made to the Buskirk
 New York      however, the cost of the vehicle   VFD expended the funds             systems did not comply with      VFD, the Grants Program
               exceeded the amount originally     awarded under the AFGP in          federal requirements.            Directorate require the
               estimated. The federal share       accordance with the grant          Instead, all income and          department to comply with
               remained as approved at            agreement.                         expenditures were tracked        federal accounting and records
               $225,000.                                                             using a single bank account.     keeping requirements, including
                                                                                                                      the retention of an official grant
                                                                                     The Buskirk VFD officials        file for at least 3 years after the
                                                                                     did not maintain an official     official close out date.
                                                                                     grant file containing copies
                                                                                     of all actions taken on the      In view of the results from the
                                                                                     grant for a period of 3 years    audit, comments on the audit
                                                                                     after the official closeout      report were not received from the
                                                                                     date.                            grantee. A telephone exit
                                                                                                                      conference was held with the
                                                                                     The Buskirk VFD did not          grantee on August 28, 2007.
                                                                                     provide copies of all
                                                                                     invoices and cancelled
                                                                                     checks supporting the exact
                                                                                     cost of the fire truck and the
                                                                                     additional equipment added
                                                                                     to the fire truck.




                                                                                                                     FC =Fire Company
                                                                                                                  FD = Fire Department
                                                                                                            FPD =Fire Protection District
                                                                                                          VFD=Volunteer Fire Department
                                       Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                Page 27
Appendix D
Results of Audits – With Findings

 GRANTEE            BRIEF DESCRIPTION                       FINDING A                          FINDING B              RECOMMENDATIONS
                       OF RESULTS
 North Collins    North Collins acquired the        North Collins FC did not           No unsupported costs were    We recommend that the Grant
 FC               personal protective equipment     procure equipment in               noted and the costs were     Programs Directorate ensure that
 North Collins,   included in the grant             accordance with the Village        appropriately recorded in    the North Collins FC complies
 New York         application. However, the FC      of North Collins                   the Department’s             with federal procurement and
                  actually spent $664 more than     Procurement Policy.                accounting system.           supporting documentation
                  the grant awarded. The federal                                                                    requirements for any future
                  share remained as approved at     Fire Company officials             The North Collins FC         awards under the Assistance to
                  $138,200.                         acknowledged that they did         provided appropriate         Firefighters Grant Program.
                                                    not obtain formal written          documentation to support
                                                    bids and/or quotes as              the costs incurred in        A telephone exit conference was
                                                    required for the                   procuring the personal       held with the grantee on August
                                                    procurements under the FY          protection equipment.        23, 2007. The finding and
                                                    2003 AFGP grant, nor did                                        recommendations were discussed
                                                    they retain notes on the                                        with the grantee.
                                                    various oral quotes received
                                                    from vendors.




                                                                                                                     FC =Fire Company
                                                                                                                  FD = Fire Department
                                                                                                            FPD =Fire Protection District
                                                                                                          VFD=Volunteer Fire Department
                                         Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                  Page 28
Appendix D
Results of Audits – With Findings

 GRANTEE          BRIEF DESCRIPTION                       FINDING A                          FINDING B               RECOMMENDATIONS
                     OF RESULTS
 Rhinebeck FD   The Rhinebeck FD acquired         The Rhinebeck FD did not           The Rhinebeck FD’s final      We recommend that the Grant
 Rhinebeck,     firefighting equipment,           follow federal procurement         Financial Status Report       Programs Directorate:
 New York       increased its inventory of        regulations in purchasing:         claimed $125,027 as the       (1) Determine the final
                personal protective equipment,    (1) a Self Containing              total program cost for the    disposition of the questioned
                and improved its                  Breathing Apparatus                purchase of equipment         costs of $45,837 for the filling
                communications capabilities as    (SCBA) air compressor              under the FY 2003 AFGP        station and thermal imaging
                a result of the FY 2003 award,    filling station for $33,500        grant.                        camera;
                under the Assistance to           and,                               The FD withdrew federal       (2)Determine the final disposition
                Firefighters Grant Program.       (2) a thermal imaging              funds, totaling $112,524,     of the $14,728 unsupported cost;
                                                  camera for $11,869.                which was the original        (3) Ensure that the Rhinebeck FD
                The expenditures claimed by                                          federal share from the        complies with federal
                Rhinebeck FD were the same as     Competitive bidding from           $125,027 award. However,      procurement requirements for any
                originally awarded under the      more than one source was           the Department provided       future AFGP awards; and
                grant. The original estimate      not pursued for either the         invoices totaling only        (4)Ensure that the Rhinebeck FD
                was $125,027. The grantee         SCBA air compressor filling        $120,175. The FD provided     complies with federal
                share was $12,503.                station or the thermal             canceled checks totaling      documentation requirements for
                                                  imaging camera.                    only $110,299.                any future AFGP awards.

                                                                                     As a result, the $14,728      A telephone exit conference was
                                                                                     difference between the cost   held with the grantee on August
                                                                                     claimed ($125,027) and the    28, 2007. The finding and
                                                                                     amounts actually paid         recommendations were discussed
                                                                                     ($110,299) is considered an   with the grantee and were
                                                                                     unsupported cost.             acknowledged.




                                                                                                                   FC =Fire Company
                                                                                                                FD = Fire Department
                                                                                                          FPD =Fire Protection District
                                                                                                        VFD=Volunteer Fire Department
                                       Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                Page 29
Appendix E
Results of Audit – Without Findings

 GRANTEE          BRIEF DESCRIPTION                       FINDING A                         FINDING B              RECOMMENDATIONS
                     OF RESULTS
 Daly City FD   The Daly City FD could not         No ineligible expenditures        No unsupported costs        The Daly City FD properly
 Daly City,     acquire all of the equipment and   were noted.                       were noted and the costs    accounted for and managed the
 California     training proposed in the AFGP                                        were appropriately          grant funds. Accordingly, no
                application because the cost       The Daly City FD                  recorded in the Daly City   recommendations are being made
                exceeded $573,992. However,        expended the funds                accounting system.          as a result of this audit.
                with Daly City agreeing to         awarded under the AFGP
                contribute more than the           in accordance with the            The Daly City FD            In view of the results from the
                required 30 %, the FD was able     grant agreement.                  provided appropriate        audit, comments on the audit
                to acquire most of the equipment                                     documentation to support    report were not received from the
                and training. The final cost was                                     the costs incurred under    grantee. A telephone exit
                $600,933. The federal share                                          the grant.                  conference was held with the
                remained as approved at                                                                          grantee on June 15, 2007.
                $401,794.
 Deer Springs   Deer Springs FPD acquired the      No ineligible expenditures        No unsupported costs        Deer Springs FPD properly
 FPD            firefighting vehicle proposed in   were noted.                       were noted.                 accounted for and managed the
 Escondido,     the AFGP application. The                                                                        grant funds. Accordingly, no
 California     original estimate was $234,000.    Deer Springs FPD                 Deer Springs FPD             recommendations are being made
                However, the final cost was        expended the funds               provided appropriate         as a result of this audit.
                $249,883. The federal share        awarded under the AFGP           documentation to support
                remained as approved at            in accordance with the           the costs incurred in        In view of the results from the
                $210,600. The cost increase was    grant agreement.                 procuring the firefighting   audit, comments on the audit
                the result of an increase in the                                    vehicle.                     report were not received from the
                cost of raw materials.                                                                           grantee. A telephone exit
                                                                                                                 conference was held with the
                                                                                                                 grantee on June 15, 2007.




                                                                                                                   FC =Fire Company
                                                                                                                FD = Fire Department
                                                                                                          FPD =Fire Protection District
                                                                                                        VFD=Volunteer Fire Department
                                      Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                               Page 30
Appendix E
Results of Audit – Without Findings

 GRANTEE          BRIEF DESCRIPTION                        FINDING A                         FINDING B              RECOMMENDATIONS
                     OF RESULTS
 Hemet FD       The Hemet FD purchased and          No ineligible expenditures        No unsupported costs        The Hemet FD properly accounted
 Hemet,         installed the radio system          were noted. The Hemet             were noted. The Hemet       for and managed the grant funds.
 California     equipment proposed in the           FD expended the funds             FD provided appropriate
                AFGP application. The original      awarded under the AFGP            documentation to support    Accordingly, no recommendations
                estimate was $227,688, but the      in accordance with the            the costs incurred in       are being made as a result of this
                final cost was $268,274. The        grant agreement.                  procuring the radio         audit.
                federal share remained as                                             equipment.
                approved at $159,382.                                                                             In view of the results from the
                                                                                                                  audit, comments on the audit
                                                                                                                  report were not received from the
                                                                                                                  grantee. A telephone exit
                                                                                                                  conference was held with the
                                                                                                                  grantee on June 15, 2007.
 Ontario FD     The Ontario FD installed vehicle    No ineligible expenditures        No unsupported costs        The Ontario FD properly
 Ontario,       exhaust extraction systems in its   were noted. The Ontario           were noted and the costs    accounted for and managed the
 California     seven existing fire stations. The   FD expended the funds             were appropriately          grant funds. Accordingly, no
                cost of this work exceeded the      awarded under the FY              recorded in the County of   recommendations are being made
                originally estimated amount of      2003 AFGP in accordance           Colusa accounting system.   as a result of this audit.
                $331,958 by $178. The final         with the grant agreement.
                cost was $332,136, with the                                           The Ontario FD provided     In view of the results from the
                federal contribution of $232,371                                      appropriate documentation   audit, comments on the audit
                remaining unchanged and the                                           to support the costs        report were not received from the
                grantee’s share increasing to                                         incurred in procuring the   grantee. A telephone exit
                $99,765.                                                              equipment.                  conference was held with the
                                                                                                                  grantee on June 7, 2007.




                                                                                                                   FC =Fire Company
                                                                                                                FD = Fire Department
                                                                                                          FPD =Fire Protection District
                                                                                                        VFD=Volunteer Fire Department
                                       Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                Page 31
Appendix E
Results of Audit – Without Findings

 GRANTEE          BRIEF DESCRIPTION                         FINDING A                         FINDING B               RECOMMENDATIONS
                     OF RESULTS
 Sacramento     The Sacramento River FPD             No ineligible expenditures        No unsupported costs         The Sacramento River FPD
 River FPD      acquired the firefighting vehicle    were noted. The                   were noted and the costs     properly accounted for and
 Colusa,        proposed in the AFGP                 Sacramento River FPD              were appropriately           managed the grant funds.
 California     application. The original            expended the funds                recorded in the County of    Accordingly, no recommendations
                estimate was $235,522. The           awarded under the AFGP            Colusa accounting system.    are being made as a result of this
                final cost was $243,712 and the      in accordance with the                                         audit.
                federal share remained as            grant agreement.                  The Sacramento River
                approved at $211,970.                                                  FPD provided appropriate     In view of the results from the
                                                                                       documentation to support     audit, comments on the audit
                                                                                       the costs incurred in        report were not received from the
                                                                                       procuring the firefighting   grantee. A telephone exit
                                                                                       vehicle.                     conference was held with the
                                                                                                                    grantee on June 11, 2007.
 South          The South Monterey County            No ineligible expenditures       No unsupported costs          The South Monterey County FPD
 Monterey       FPD acquired the firefighting        were noted. The South            were noted. The South         properly accounted for and
 County FPD     vehicle proposed in the AFGP         Monterey County FPD              Monterey County FPD           managed the grant funds.
 King City,     application. The original            expended the funds               provided appropriate          Accordingly, no recommendations
 California     estimate was $252,500.               awarded under the AFGP           documentation to support      are being made as a result of this
                However, the final cost was          in accordance with the           the costs incurred in         audit.
                $259,155. The federal share          grant agreement.                 procuring the firefighting
                remained as approved at                                               vehicle.                      In view of the results from the
                $227,250.                                                                                           audit, comments on the audit
                                                                                                                    report were not received from the
                                                                                                                    grantee. A telephone exit
                                                                                                                    conference was held with the
                                                                                                                    grantee on June 7, 2007.




                                                                                                                     FC =Fire Company
                                                                                                                  FD = Fire Department
                                                                                                            FPD =Fire Protection District
                                                                                                          VFD=Volunteer Fire Department
                                        Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                 Page 32
Appendix E
Results of Audit – Without Findings

 GRANTEE           BRIEF DESCRIPTION                        FINDING A                         FINDING B              RECOMMENDATIONS
                      OF RESULTS
 Belleville FD   The Belleville FD acquired the      No ineligible expenditures        No unsupported costs        The Belleville FD properly
 Belleville,     firefighting vehicle proposed in    were noted. The                   were noted and the costs    accounted for and managed the
 Illinois        the AFGP application. The           Belleville FD expended            were appropriately          grant funds. Accordingly, no
                 original estimate was $221,948,     the funds awarded under           recorded in the City of     recommendations are being made
                 but the final cost was $246,404.    the AFGP in accordance            Belleville accounting       as a result of this audit.
                 The federal share remained as       with the grant agreement.         system.
                 approved at $199,754.                                                                             In view of the results from the
                                                                                      The Belleville FD            audit, comments on the audit
                                                                                      provided appropriate         report were not received from the
                                                                                      documentation to support     grantee. A telephone exit
                                                                                      the costs incurred in        conference was held with the
                                                                                      procuring the firefighting   grantee on July 26, 2007.
                                                                                      vehicle.
 Carbondale FD   The Carbondale FD acquired the      No ineligible expenditures       No unsupported costs         The Carbondale FD properly
 Carbondale,     firefighting vehicle proposed in    were noted. The                  were noted and the costs     accounted for and managed the
 Illinois        the AFGP application. The cost      Carbondale FD expended           were appropriately           grant funds. Accordingly, no
                 of the vehicle exceeded the         the funds awarded under          recorded in the              recommendations are being made
                 amount originally estimated.        the AFGP in accordance           Carbondale FD accounting     as a result of this audit.
                 The final cost was $159,790 but     with the grant agreement.        system.
                 the federal share remained as                                                                     In view of the results from the
                 approved at $130,500.                                                The Carbondale FD            audit, comments on the audit
                                                                                      provided appropriate         report were not received from the
                                                                                      documentation to support     grantee. A telephone exit
                                                                                      the costs incurred in        conference was held with the
                                                                                      procuring the firefighting   grantee on June 9, 2007.
                                                                                      vehicle.




                                                                                                                     FC =Fire Company
                                                                                                                  FD = Fire Department
                                                                                                            FPD =Fire Protection District
                                                                                                          VFD=Volunteer Fire Department
                                        Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                 Page 33
Appendix E
Results of Audit – Without Findings

 GRANTEE            BRIEF DESCRIPTION                         FINDING A                         FINDING B                RECOMMENDATIONS
                       OF RESULTS
 Carlinville FD   The Carlinville FD acquired the      No ineligible expenditures        No unsupported costs          The Carlinville FD properly
 Carlinville,     firefighting equipment and made      were noted. The                   were noted and the costs      accounted for and managed the
 Illinois         the vehicle exhaust                  Carlinville FD expended           were appropriately            grant funds. Accordingly, no
                  modifications as proposed in the     the funds awarded under           recorded in the Carlinville   recommendations are being made
                  AFGP application. The cost of        the AFGP in accordance            FD’s accounting system.       as a result of this audit.
                  the equipment and vehicle            with the grant agreement.
                  exhaust modifications exceeded                                        The Carlinville FD             In view of the results from the
                  the amount originally estimated.                                      provided appropriate           audit, comments on the audit
                  The federal share remained as                                         documentation to support       report were not received from the
                  approved at $111,432.                                                 the costs incurred in          grantee. A telephone exit
                                                                                        procuring the firefighting     conference was held with the
                                                                                        equipment and modifying        grantee on August 22, 2007.
                                                                                        the facility for the vehicle
                                                                                        exhaust system.
 Decatur FD       The Decatur FD acquired the          No ineligible expenditures       No unsupported costs           The Decatur FD properly
 Decatur,         firefighting personal protective     were noted. The Decatur          were noted and costs were      accounted for and managed the
 Illinois         equipment as proposed in the         FD expended the funds            appropriately recorded in      grant funds. Accordingly, no
                  AFGP application.                    awarded under the AFGP           Decatur FD’s accounting        recommendations are being made
                                                       in accordance with the           system. The Decatur FD         as a result of this audit.
                                                       grant agreement.                 provided appropriate
                                                                                        documentation to support       In view of the results from the
                                                                                        costs incurred.                audit, comments on the audit
                                                                                                                       report were not received from the
                                                                                                                       grantee. A telephone exit
                                                                                                                       conference was held with the
                                                                                                                       grantee on August 22, 2007.




                                                                                                                        FC =Fire Company
                                                                                                                     FD = Fire Department
                                                                                                               FPD =Fire Protection District
                                                                                                             VFD=Volunteer Fire Department
                                          Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                   Page 34
Appendix E
Results of Audit – Without Findings

 GRANTEE             BRIEF DESCRIPTION                        FINDING A                         FINDING B               RECOMMENDATIONS
                        OF RESULTS
 McHenry FPD       The McHenry FPD acquired the        No ineligible expenditures        No unsupported costs         The McHenry FPD properly
 McHenry,          personal protective firefighting    were noted. The McHenry           were noted and the costs     accounted for and managed the
 Illinois          equipment as proposed in the        FPD expended the funds            were appropriately           grant funds. Accordingly, no
                   AFGP application. The original      awarded under the AFGP            recorded in the McHenry      recommendations are being made
                   estimate was $257,550. But, the     in accordance with the            FPD’s accounting system.     as a result of this audit.
                   final cost was $257,730. The        grant agreement.
                   federal share remained as                                             The McHenry FPD              In view of the results from the
                   approved at $231,795.                                                 provided appropriate         audit, comments on the audit
                                                                                         documentation to support     report were not received from the
                                                                                         the costs incurred in        grantee. A telephone exit
                                                                                         procuring the firefighting   conference was held with the
                                                                                         personal protective          grantee on August 22, 2007.
                                                                                         equipment.
 Neoga FPD         The Neoga FPD acquired the          No ineligible expenditures        No unsupported costs         The Neoga FPD properly
 Neoga, Illinois   firefighting vehicle proposed in    were noted. The Neoga             were noted and the costs     accounted for and managed the
                   the AFGP application. The           FPD expended the funds            were appropriately           grant funds. Accordingly, no
                   original estimate was $249,500,     awarded under the AFGP            recorded in the Neoga        findings are being reported from
                   but the final cost was $319,308.    in accordance with the            bank account.                the audit.
                   The federal share remained as       grant agreement.
                   approved at $224,550.                                                 The Neoga FPD provided       In view of the results from the
                                                                                         appropriate documentation    audit, comments on the audit
                                                                                         to support the costs         report were not received from the
                                                                                         incurred in procuring the    grantee. A telephone exit
                                                                                         firefighting vehicle.        conference was held with the
                                                                                                                      grantee on June 9, 2007.




                                                                                                                        FC =Fire Company
                                                                                                                     FD = Fire Department
                                                                                                               FPD =Fire Protection District
                                                                                                             VFD=Volunteer Fire Department
                                          Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                   Page 35
Appendix E
Results of Audit – Without Findings

 GRANTEE              BRIEF DESCRIPTION                        FINDING A                         FINDING B              RECOMMENDATIONS
                         OF RESULTS
 Rockland FPD       The Rockland FPD acquired the       No ineligible expenditures        No unsupported costs        The Rockland FPD properly
 Lake Bluff,        firefighting vehicle proposed in    were noted. The Rockland          were noted and the costs    accounted for and managed the
 Illinois           the AFGP application. The cost      FPD expended the funds            were appropriately          grant funds. Accordingly, no
                    of the vehicle exceeded the         awarded under the AFGP            recorded in the Rockland    recommendations are being made
                    amount originally estimated.        in accordance with the            FPD accounting system.      as a result of this audit.
                    The federal share remained as       grant agreement.
                    approved at $356,400.                                                The Rockland FPD             In view of the results from the
                                                                                         provided appropriate         audit, comments on the audit
                                                                                         documentation to support     report were not received from the
                                                                                         the costs incurred in        grantee. A telephone exit
                                                                                         procuring the firefighting   conference was held with the
                                                                                         vehicle.                     grantee on August 22, 2007.
 Serena             The Serena FPD acquired the         No ineligible expenditures       No unsupported costs         The Serena FPD properly
 Community          firefighting equipment as           were noted. The Serena           were noted and the costs     accounted for and managed the
 FPD                proposed in the AFGP                FPD expended the funds           were appropriately           grant funds. Accordingly, no
 Serena, Illinois   application. However, the           awarded under the AFGP           recorded in the Serena       recommendations are being made
                    Serena FPD paid more for the        in accordance with the           FPD’s accounting ledger.     as a result of this audit.
                    equipment than originally           grant agreement.
                    projected. The cost share                                            The Serena FPD provided      In view of the results from the
                    matching amount increased by                                         appropriate documentation    audit, comments on the audit
                    $128 over the award amount and                                       to support the costs         report were not received from the
                    the federal share remained the                                       incurred in procuring the    grantee. A telephone exit
                    same at $101,031.                                                    firefighting equipment.      conference was held with the
                                                                                                                      grantee on August 22, 2007.




                                                                                                                        FC =Fire Company
                                                                                                                     FD = Fire Department
                                                                                                               FPD =Fire Protection District
                                                                                                             VFD=Volunteer Fire Department
                                           Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                    Page 36
Appendix E
Results of Audit – Without Findings

 GRANTEE          BRIEF DESCRIPTION                        FINDING A                         FINDING B              RECOMMENDATIONS
                     OF RESULTS
 Wilmington     The Wilmington FPD acquired         No ineligible expenditures        No unsupported costs        The Wilmington FPD properly
 FPD            the personal protective             were noted. The                   were noted and the costs    accounted for and managed the
 Wilmington,    firefighting equipment as           Wilmington FPD                    were appropriately          grant funds. Accordingly, no
 Illinois       proposed in the AFGP                expended the funds                recorded in the             recommendations are being made
                application. While the cost of      awarded under the AFGP            Wilmington FPD              as a result of this audit.
                the equipment exceeded the          in accordance with the            accounting ledger.
                amount originally estimated by      grant agreement.                                              In view of the results from the
                $286, the federal share remained                                     The Wilmington FPD           audit, comments on the audit
                the same at $98,694.                                                 provided appropriate         report were not received from the
                                                                                     documentation to support     grantee. A telephone exit
                                                                                     the costs incurred in        conference was held with the
                                                                                     procuring the personal       grantee on August 22, 2007.
                                                                                     protective firefighting
                                                                                     equipment.
 Dansville FD   The Dansville FD acquired the       No ineligible expenditures       No unsupported costs         The Dansville FD properly
 Dansville,     firefighting and personal           were noted. The Dansville        were noted and the costs     accounted for and managed the
 New York       protection equipment proposed       FD expended the funds            were appropriately           grant funds. Accordingly, no
                in the AFGP application. The        awarded under the AFGP           recorded in the              recommendations are being made
                cost of the equipment exceeded      in accordance with the           Department’s accounting      as a result of this audit.
                the amount originally estimated.    grant agreement.                 system.
                The federal share remained as                                                                     In view of the results from the
                approved at $234,148.                                                The Dansville FD             audit, comments on the audit
                                                                                     provided appropriate         report were not received from the
                                                                                     documentation to support     grantee. A telephone exit
                                                                                     the costs incurred in        conference was held with the
                                                                                     procuring the firefighting   grantee on August 23, 2007.
                                                                                     and personal protection
                                                                                     equipment.


                                                                                                                    FC =Fire Company
                                                                                                                 FD = Fire Department
                                                                                                           FPD =Fire Protection District
                                                                                                         VFD=Volunteer Fire Department
                                       Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                Page 37
Appendix E
Results of Audit – Without Findings

 GRANTEE            BRIEF DESCRIPTION                       FINDING A                         FINDING B               RECOMMENDATIONS
                       OF RESULTS
 Fort Plain VFD   The Fort Plain VFD acquired the    No ineligible expenditures        No unsupported costs         The Fort Plain VFD properly
 Fort Plain,      firefighting vehicle proposed in   were noted. The Fort              were noted and the costs     accounted for and managed the
 New York         the AFGP application. The cost     Plain VFD expended the            were appropriately           grant funds. Accordingly, no
                  of the vehicle exceeded the        funds awarded under the           recorded in the Village of   recommendations are being made
                  amount originally estimated.       AFGP in accordance with           Fort Plain accounting        as a result of this audit.
                  The federal share remained as      the grant agreement.              system.
                  approved at $225,000.                                                                             In view of the results from the
                                                                                       The Fort Plain VFD           audit, comments on the audit
                                                                                       provided appropriate         report were not received from the
                                                                                       documentation to support     grantee. A telephone exit
                                                                                       the costs incurred in        conference was held with the
                                                                                       procuring the firefighting   grantee on August 24, 2007.
                                                                                       vehicle.




                                                                                                                      FC =Fire Company
                                                                                                                   FD = Fire Department
                                                                                                             FPD =Fire Protection District
                                                                                                           VFD=Volunteer Fire Department
                                        Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                 Page 38
Appendix E
Results of Audit – Without Findings

 GRANTEE           BRIEF DESCRIPTION                        FINDING A                         FINDING B               RECOMMENDATIONS
                      OF RESULTS
 Frankfort VFD   The Frankfort VFD acquired the      No ineligible expenditures        No unsupported costs         The Frankfort VFD properly
 Frankfort,      Mobile Fire Training Facility       were noted. The Frankfort         were noted and the costs     accounted for and managed the
 New York        proposed in the AFGP                VFD expended the funds            were appropriately           grant funds. Accordingly, no
                 application. The cost of the        awarded under the AFGP            accounted for in the         recommendations are being made
                 Mobile Fire Training Facility       in accordance with the            grantee’s records.           as a result of this audit.
                 was reduced from $380,000 to        grant agreement.
                 $353,470.74 due to some trailer                                       The Frankfort VFD            In view of the results from the
                 modifications.                                                        provided appropriate         audit, comments on the audit
                                                                                       documentation to support     report were not received from the
                 Frankfort VFD was approved to                                         the costs incurred in        grantee. A telephone exit
                 use some of the remaining grant                                       procuring the firefighting   conference was held with the
                 funds for various firefighting                                        equipment.                   grantee on July 27, 2007.
                 equipment. Frankfort VFD
                 spent $378,448--federal share
                 was reduced to $340,604 from
                 $342,000 and the local share was
                 reduced to $37,844 from
                 $38,000.
 Lockport FD     The Lockport FD acquired the        No ineligible expenditures       No unsupported costs          The Lockport FD properly
 Lockport,New    fire-fighting vehicle proposed in   were noted. The Lockport         were noted and the costs      accounted for and managed the
 York            the FY 2003 AFGP application.       FD expended the funds            were appropriately            grant funds. Accordingly, no
                 However, the cost of the vehicle    awarded under the AFGP           accounted for in the          recommendations are being made
                 exceeded the approved project       in accordance with the           grantee’s records.            as a result of this audit.
                 cost of $250,000. The federal       grant agreement.
                 share remained at $225,000.                                          The Lockport FD provided      In view of the results from the
                                                                                      appropriate documentation     audit, comments on the audit
                                                                                      to support the costs          report were not received from the
                                                                                      incurred in procuring the     grantee. A telephone exit
                                                                                      firefighting equipment.       conference was held with the
                                                                                                                    grantee on August 21, 2007.
                                                                                                                      FC =Fire Company
                                                                                                                   FD = Fire Department
                                                                                                             FPD =Fire Protection District
                                                                                                           VFD=Volunteer Fire Department
                                        Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                 Page 39
Appendix E
Results of Audit – Without Findings

 GRANTEE            BRIEF DESCRIPTION                        FINDING A                         FINDING B              RECOMMENDATIONS
                       OF RESULTS
 Roosevelt Fire   The Roosevelt Fire District         No ineligible expenditures        No unsupported costs        The Roosevelt Fire District
 District         acquired the fire fighting          were noted. The                   were noted and the costs    properly accounted for and
 Poughkeepsie,    equipment and the personal          Roosevelt Fire District           were appropriately          managed the grant funds.
 New York         protective equipment proposed       expended the funds                accounted for in the        Accordingly, no recommendations
                  in the FY 2003 AFGP                 awarded under the AFGP            grantee’s records.          are being made as a result of this
                  application. Roosevelt Fire         in accordance with the                                        audit.
                  District purchased additional       grant agreement.                  The Roosevelt Fire
                  items, which brought the total                                        District provided           In view of the results from the
                  cost above the expected amount.                                       appropriate documentation   audit, comments on the audit
                  The federal share remained at                                         to support the costs        report were not received from the
                  $168,102.                                                             incurred in procuring the   grantee. A telephone exit
                                                                                        firefighting equipment.     conference was held with the
                                                                                                                    grantee on August 21, 2007.
 Saratoga         The Saratoga Springs FD             No ineligible expenditures       No unsupported costs         The Saratoga Springs FPD
 Springs FD       acquired firefighting equipment     were noted. The Saratoga         were noted and the costs     properly accounted for and
 Saratoga         and improved the department’s       Springs FPD expended the         were appropriately           managed the grant funds.
 Springs,         rescue capabilities. The federal    funds awarded under the          recorded in the County of    Accordingly, no recommendations
 New York         share remained as approved at       AFGP in accordance with          Saratoga accounting          are being made as a result of this
                  $112,381.                           the grant agreement.             system.                      audit.

                                                                                       The Saratoga Springs FPD     In view of the results from the
                                                                                       provided appropriate         audit, comments on the audit
                                                                                       documentation to support     report were not received from the
                                                                                       the costs incurred in        grantee. A telephone exit
                                                                                       procuring the firefighting   conference was held with the
                                                                                       equipment.                   grantee on August 28, 2007.




                                                                                                                      FC =Fire Company
                                                                                                                   FD = Fire Department
                                                                                                             FPD =Fire Protection District
                                                                                                           VFD=Volunteer Fire Department
                                         Assistance to Firefighters Grant Program - Fiscal Year 2003

                                                                  Page 40
Appendix F
Management Comments to the Draft Report




                 Assistance to Firefighters Grant Program - Fiscal Year 2003 


                                           Page 41 

Appendix F
Management Comments to the Draft Report




                 Assistance to Firefighters Grant Program - Fiscal Year 2003 


                                           Page 42 

Appendix F
Management Comments to the Draft Report




                 Assistance to Firefighters Grant Program - Fiscal Year 2003 


                                           Page 43 

Appendix F
Management Comments to the Draft Report




                 Assistance to Firefighters Grant Program - Fiscal Year 2003 


                                           Page 44 

Appendix F
Management Comments to the Draft Report




                 Assistance to Firefighters Grant Program - Fiscal Year 2003 


                                           Page 45 

Appendix F
Management Comments to the Draft Report




                 Assistance to Firefighters Grant Program - Fiscal Year 2003 


                                           Page 46 

Appendix F
Management Comments to the Draft Report




                 Assistance to Firefighters Grant Program - Fiscal Year 2003 


                                           Page 47 

Appendix G
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Deputy Administrator, National Preparedness Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison
                      National Preparedness Directorate Audit Liaison


                      Office of Management and Budget

                      Homeland Bureau Chief
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                  Assistance to Firefighters Grant Program - Fiscal Year 2003 


                                            Page 48 

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG
web site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at: 

           DHS Office of Inspector General/MAIL STOP 2600, 

           Attention: Office of Investigations - Hotline 

           245 Murray Drive, SW, Building 410, 

           Washington, DC 20528. 


The OIG seeks to protect the identity of each writer and caller.
